               Department of Veterans Affairs
               Office of Inspector General


                    Office of Healthcare Inspections

Report No. 13-04241-78




    Combined Assessment Program 

            Review of the 

       Boise VA Medical Center 

             Boise, Idaho 





February 25, 2014

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                                                  CAP Review of the Boise VA Medical Center, Boise, ID



                                              Glossary
                 ATV            all-terrain vehicle
                 CAP            Combined Assessment Program
                 CLC            community living center
                 COS            Chief of Staff
                 EHR            electronic health record
                 EOC            environment of care
                 facility       Boise VA Medical Center
                 FY             fiscal year
                 MEC            Medical Executive Committee
                 MH             mental health
                 NA             not applicable
                 NM             not met
                 OIG            Office of Inspector General
                 PRC            Peer Review Committee
                 QM             quality management
                 SCC            Skin Care Council
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                                              CAP Review of the Boise VA Medical Center, Boise, ID



                                           Table of Contents 

                                                                                                                           Page 

Executive Summary ...................................................................................................            i


Objectives and Scope ................................................................................................            1

  Objectives ...............................................................................................................     1

  Scope......................................................................................................................    1


Reported Accomplishment........................................................................................                  2


Results and Recommendations ................................................................................ 3

  QM .......................................................................................................................... 3

  EOC ........................................................................................................................ 6

  Medication Management......................................................................................... 8

  Coordination of Care ............................................................................................... 9

  Nurse Staffing ......................................................................................................... 10

  Pressure Ulcer Prevention and Management ......................................................... 11

  CLC Resident Independence and Dignity ............................................................... 13


Appendixes
  A. Facility Profile ....................................................................................................      15

  B. Strategic Analytics for Improvement and Learning ............................................                              16

  C. VISN Director Comments ..................................................................................                  19

  D. Facility Director Comments ...............................................................................                 20

  E. OIG Contact and Staff Acknowledgments .........................................................                            26

  F. Report Distribution .............................................................................................          27

  G. Endnotes ...........................................................................................................       28





VA OIG Office of Healthcare Inspections
                                             CAP Review of the Boise VA Medical Center, Boise, ID



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
December 2, 2013.

Review Results: The review covered seven activities.                          We     made     no
recommendations in the following activity:

 Environment of Care

The facility’s reported accomplishment was an all-terrain vehicle experience for
veterans with disabilities.

Recommendations: We made recommendations in the following six activities:
Quality Management: Ensure that code reviews include screening for clinical issues
prior to the code that may have contributed to the occurrence of the code. Require that
the Surgical Invasive Procedure Committee includes the Chief of Staff as a member,
monitors surgery performance improvement activities, and documents its review of
surgical deaths. Include most services in the review of electronic health record quality.

Medication Management: Ensure clinicians conducting medication education
accommodate identified learning barriers and document the accommodations made.

Coordination of Care: Require that discharge instructions are consistent with patients’
identified post-discharge needs and that they include all required elements. Ensure the
facility has a Veterans Health Education Coordinator and an active Veterans Health
Education Committee.

Nurse Staffing: Ensure that the facility expert panel includes all required members and
that those members receive the required training prior to the next annual staffing plan
reassessment.

Pressure Ulcer Prevention and Management: Ensure that Skin Care Council minutes
include analysis of pressure ulcer data and that the council routinely reports program
data to facility executive leadership. Accurately document pressure ulcer location and
stage for all patients with pressure ulcers. Provide and document pressure ulcer
education for patients with pressure ulcers and/or their caregivers. Establish ongoing
staff pressure ulcer education requirements.

Community Living Center Resident Independence and Dignity: Complete and document
restorative nursing services, or document reasons for discontinuing or not providing
those services.




VA OIG Office of Healthcare Inspections                                                         i
                                          CAP Review of the Boise VA Medical Center, Boise, ID


Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 19–25, for the full
text of the Directors’ comments.) We consider recommendations 7 and 8 closed. We
will follow up on the planned actions for the open recommendations until they are
completed.




                                                     JOHN D. DAIGH, JR., M.D. 

                                                    Assistant Inspector General for 

                                                       Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                      ii
                                          CAP Review of the Boise VA Medical Center, Boise, ID



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following seven activities:

   	 QM

   	 EOC

   	 Medication Management

   	 Coordination of Care

   	 Nurse Staffing

   	 Pressure Ulcer Prevention and Management

   	 CLC Resident Independence and Dignity

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012, FY 2013, and FY 2014 through
December 2, 2013, and was done in accordance with OIG standard operating
procedures for CAP reviews. We also asked the facility to provide the status on the


VA OIG Office of Healthcare Inspections                                                     1
                                           CAP Review of the Boise VA Medical Center, Boise, ID


recommendations we made in our previous CAP report (Combined Assessment
Program Review of the Boise VA Medical Center, Boise, Idaho, Report
No. 10-02984-54, January 10, 2011).

During this review, we presented crime awareness briefings for 142 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
198 responded. We shared summarized results with the facility Director.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                          Reported Accomplishment 

Veterans with Disabilities ATV Experience
The facility partnered with the Idaho Recreation Council, ATV clubs, and recreational
equipment dealers to provide an ATV experience for veterans with disabilities. Fifteen
veterans with disabilities were paired with riding coaches and were able to spend the
day enjoying the outdoors.




VA OIG Office of Healthcare Inspections                                                      2
                                                        CAP Review of the Boise VA Medical Center, Boise, ID



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                        Findings
       There was a senior-level committee/group
       responsible for QM/performance improvement
       that met regularly.
        There was evidence that outlier data was
          acted upon.
        There was evidence that QM, patient
          safety, and systems redesign were
          integrated.
       The protected peer review process met
       selected requirements:
        The PRC was chaired by the COS and
          included membership by applicable service
          chiefs.
        Actions from individual peer reviews were
          completed and reported to the PRC.
        The PRC submitted quarterly summary
          reports to the MEC.
        Unusual findings or patterns were
          discussed at the MEC.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       were initiated, completed, and reported to the
       MEC.
       Specific telemedicine services met selected
       requirements:
        Services were properly approved.
        Services were provided and/or received by
          appropriately privileged staff.
        Professional practice evaluation information
          was available for review.




VA OIG Office of Healthcare Inspections                                                                   3
                                                          CAP Review of the Boise VA Medical Center, Boise, ID


NM               Areas Reviewed (continued)                                     Findings
       Observation bed use met selected
       requirements:
        Local policy included necessary elements.
        Data regarding appropriateness of
          observation bed usage was gathered.
        If conversions to acute admissions were
          consistently 30 percent or more,
          observation criteria and utilization were
          reassessed timely.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
 X     The process to review resuscitation events         Twelve months of Critical Care and
       met selected requirements:                         Cardiopulmonary Resuscitation Committee
        An interdisciplinary committee was               (formerly the Critical Care Committee and the
          responsible for reviewing episodes of care      Code Blue Review Committee) meeting minutes
          where resuscitation was attempted.              reviewed:
        Resuscitation event reviews included              There was no evidence that code reviews
          screening for clinical issues prior to events      included screening for clinical issues prior to
          that may have contributed to the                   the code that may have contributed to the
          occurrence of the code.                            occurrence of the code.
        Data were collected that measured
          performance in responding to events.
 X     The surgical review process met selected           Twelve months of Surgical Invasive Procedure
       requirements:                                      Committee meeting minutes reviewed:
        An interdisciplinary committee with               The COS was not a member.
          appropriate leadership and clinical              There was no evidence that surgery
          membership met monthly to review surgical         performance improvement activities were
          processes and outcomes.                           monitored or that surgical deaths were
        All surgical deaths were reviewed.                 reviewed by the committee.
        Additional data elements were routinely
          reviewed.
       Critical incidents reporting processes were
       appropriate.
 X     The process to review the quality of entries in    Twelve months of Medical Records Committee
       the EHR met selected requirements:                 meeting minutes reviewed:
        A committee was responsible to review             The review of EHR quality did not include
          EHR quality.                                      EHRs from Medicine or Surgery Services.
        Data were collected and analyzed at least
          quarterly.
        Reviews included data from most services
          and program areas.
       The policy for scanning non-VA care
       documents met selected requirements.




VA OIG Office of Healthcare Inspections                                                                        4
                                                         CAP Review of the Boise VA Medical Center, Boise, ID


NM             Areas Reviewed (continued)                                     Findings
       The process to review blood/transfusions
       usage met selected requirements:
        A committee with appropriate clinical
         membership met at least quarterly to review
         blood/transfusions usage.
        Additional data elements were routinely
         reviewed.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       Overall, senior managers were involved in
       performance improvement over the past
       12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility met any additional elements
       required by VHA or local policy.

Recommendations

1. We recommended that processes be strengthened to ensure that code reviews include
screening for clinical issues prior to the code that may have contributed to the occurrence of the
code.

2. We recommended that the Surgical Invasive Procedure Committee includes the COS as a
member, monitors surgery performance improvement activities, and documents its review of
surgical deaths.

3. We recommended that processes be strengthened to ensure that the review of EHR quality
includes most services.




VA OIG Office of Healthcare Inspections                                                                    5
                                                        CAP Review of the Boise VA Medical Center, Boise, ID


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in radiology and acute MH were met.2

We inspected the emergency department, the CLC, the intensive care unit, the inpatient
medical/surgical and MH units, primary care, audiology, and the x-ray and fluoroscopy areas.
Additionally, we reviewed relevant documents, conversed with key employees and managers,
and reviewed 25 employee training records (10 radiology employees, 10 MH unit employees,
and 5 Multidisciplinary Safety Inspection Team members). The table below shows the areas
reviewed for this topic. Any items that did not apply to this facility are marked NA. The facility
generally met requirements. We made no recommendations.

NM            Areas Reviewed for General EOC                                 Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Auditory privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
                Areas Reviewed for Radiology
       The facility had a Radiation Safety Committee,
       the committee met at least every 6 months
       and established a quorum for meetings, and
       the Radiation Safety Officer attended
       meetings.
       Radiation Safety Committee meeting minutes
       reflected discussion of any problematic areas,
       corrective actions taken, and tracking of
       corrective actions to closure.
       Facility policy addressed frequencies of
       equipment inspection, testing, and
       maintenance.


VA OIG Office of Healthcare Inspections                                                                   6
                                                           CAP Review of the Boise VA Medical Center, Boise, ID


NM      Areas Reviewed for Radiology (continued)                                Findings
       The facility had policy for the safe use of
       fluoroscopic equipment.
       The facility Director appointed a Radiation
       Safety Officer to direct the radiation safety
       program.
       X-ray and fluoroscopy equipment items were
       tested by a qualified medical physicist before
       placed in service and annually thereafter, and
       quality control was conducted on fluoroscopy
       equipment in accordance with facility
       policy/procedure.
       Designated employees received initial
       radiation safety training and training thereafter
       with the frequency required by local policy,
       and radiation exposure monitoring was
       completed for employees within the past year.
       Environmental safety requirements in x-ray
       and fluoroscopy were met.
       Infection prevention requirements in x-ray and
       fluoroscopy were met.
       Medication safety and security requirements
       in x-ray and fluoroscopy were met.
       Sensitive patient information in x-ray and
       fluoroscopy was protected.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Acute MH
       MH EOC inspections were conducted every
       6 months.
       Corrective actions were taken for
       environmental hazards identified during
       inspections, and actions were tracked to
       closure.
NA     MH unit staff, Multidisciplinary Safety
       Inspection Team members, and occasional
       unit workers received training on how to
       identify and correct environmental hazards,
       content and proper use of the MH EOC
       Checklist, and VA’s National Center for
       Patient Safety study of suicide on psychiatric
       units.
NA     The locked MH unit(s) was/were in
       compliance with MH EOC Checklist safety
       requirements or an abatement plan was in
       place.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.


VA OIG Office of Healthcare Inspections                                                                      7
                                                         CAP Review of the Boise VA Medical Center, Boise, ID


Medication Management
The purpose of this review was to determine whether the appropriate clinical oversight and
education were provided to patients discharged with orders for fluoroquinolone oral antibiotics.3

We reviewed relevant documents and conversed with key managers and employees.
Additionally, we reviewed the EHRs of 33 randomly selected inpatients discharged on 1 of
3 selected oral antibiotics. The table below shows the areas reviewed for this topic. The area
marked as NM did not meet applicable requirements and needed improvement. Any items that
did not apply to this facility are marked NA.

NM                      Areas Reviewed                                        Findings
       Clinicians conducted inpatient learning
       assessments within 24 hours of admission or
       earlier if required by local policy.
 X     If learning barriers were identified as part of    For the two patients with identified learning
       the learning assessment, medication                 barriers, EHR documentation did not reflect
       counseling was adjusted to accommodate the          medication counseling accommodation to
       barrier(s).                                         address the barriers.
       Patient renal function was considered in
       fluoroquinolone dosage and frequency.
       Providers completed discharge progress
       notes or discharge instructions, written
       instructions were provided to
       patients/caregivers, and EHR documentation
       reflected that the instructions were
       understood.
       Patients/caregivers were provided a written
       medication list at discharge, and the
       information was consistent with the dosage
       and frequency ordered.
       Patients/caregivers were offered medication
       counseling, and this was documented in
       patient EHRs.
       The facility established a process for
       patients/caregivers regarding whom to notify
       in the event of an adverse medication event.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

4. We recommended that processes be strengthened to ensure that clinicians conducting
medication education accommodate identified learning barriers and document the
accommodations made to address those barriers and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                    8
                                                         CAP Review of the Boise VA Medical Center, Boise, ID


Coordination of Care
The purpose of this review was to evaluate discharge planning for patients with selected
aftercare needs.4

We reviewed relevant documents, and we conversed with key employees. Additionally, we
reviewed the EHRs of 21 patients with specific diagnoses who were discharged from
July 1, 2012, through June 30, 2013. The table below shows the areas reviewed for this topic.
The areas marked as NM did not meet applicable requirements and needed improvement. Any
items that did not apply to this facility are marked NA.

NM                    Areas Reviewed                                          Findings
       Patients’ post-discharge needs were identified,
       and discharge planning addressed the
       identified needs.
 X     Clinicians provided discharge instructions to      Eight patients’ discharge instructions were not
       patients and/or caregivers and validated their      consistent with identified post-discharge
       understanding.                                      needs.
                                                          Discharge instructions did not include all
                                                           elements required by VHA policy, such as
                                                           activity level.
       Patients received the ordered aftercare
       services and/or items within the
       ordered/expected timeframe.
       Patients’ and/or caregivers’ knowledge and
       learning abilities were assessed during the
       inpatient stay.
 X     The facility complied with any additional         VHA and facility policy reviewed:
       elements required by VHA or local policy.          The facility did not have a Veterans Health
                                                           Education Coordinator or an active Veterans
                                                           Health Education Committee.

Recommendations

5. We recommended that processes be strengthened to ensure that discharge instructions are
consistent with patients’ identified post-discharge needs and include all elements required by
VHA policy and that compliance be monitored.

6. We recommended that the facility have a Veterans Health Education Coordinator and an
active Veterans Health Education Committee.




VA OIG Office of Healthcare Inspections                                                                    9
                                                         CAP Review of the Boise VA Medical Center, Boise, ID


Nurse Staffing
The purpose of this review was to determine whether the facility implemented the staffing
methodology for nursing personnel and completed annual reassessments and to evaluate nurse
staffing on three inpatient units (acute medical/surgical, long-term care, and MH).5

We reviewed facility and unit-based expert panel documents and 15 training files, and we
conversed with key employees. Additionally, we reviewed the actual nursing hours per patient
day for 3 randomly selected units—acute medical/surgical unit 2MS, MH unit 2P, and
the CLC—for 50 randomly selected days between October 1, 2012, and September 30, 2013.
The table below shows the areas reviewed for this topic. The areas marked as NM did not meet
applicable requirements and needed improvement. Any items that did not apply to this facility
are marked NA.

NM                      Areas Reviewed                                        Findings
       The facility either implemented or reassessed
       a nurse staffing methodology within the
       expected timeframes.
 X     The facility expert panel followed the required    The facility expert panel did not include a staff
       processes and included the required                 nurse, an Associate Nurse Executive,
       members.                                            evening and night supervisory staff, or nurse
                                                           managers from the various areas.
       The unit-based expert panels followed the
       required processes and included the required
       members.
 X     Members of the expert panels completed the         None of the six facility expert panel members
       required training.                                  had completed the required training.
       The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

7. We recommended that the annual staffing plan reassessment process ensures that the
facility expert panel includes all required members.

8. We recommended that all members of the facility expert panel receive the required training
prior to the next annual staffing plan reassessment.




VA OIG Office of Healthcare Inspections                                                                   10
                                                         CAP Review of the Boise VA Medical Center, Boise, ID


Pressure Ulcer Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive pressure ulcer prevention and management.6

We reviewed relevant documents, 11 EHRs of patients with pressure ulcers (1 patient with a
hospital-acquired pressure ulcer and 10 patients with community-acquired pressure ulcers), and
10 employee training records. The table below shows the areas reviewed for this topic. The
areas marked as NM did not meet applicable requirements and needed improvement. Any
items that did not apply to this facility are marked NA.

 NM                     Areas Reviewed                                        Findings
        The facility had a pressure ulcer prevention
        policy, and it addressed prevention for all
        inpatient areas and for outpatient care.
        The facility had an interprofessional pressure
        ulcer committee, and the membership
        included a certified wound care specialist.
  X     Pressure ulcer data was analyzed and             SCC meeting minutes for past 3 quarters
        reported to facility executive leadership.       reviewed:
                                                          Minutes did not reflect ongoing pressure ulcer
                                                            data analysis.
                                                          Pressure ulcer data was not routinely
                                                            reported to facility executive leadership.
        Complete skin assessments were performed
        within 24 hours of acute care admissions.
        Skin inspections and risk scales were
        performed upon transfer, change in condition,
        and discharge.
  X     Staff were generally consistent in              In 2 of the 11 EHRs, staff did not consistently
        documenting location, stage, risk scale score,   document pressure ulcer location and stage.
        and date acquired.
        Required activities were performed for
        patients determined to be at risk for pressure
        ulcers and for patients with pressure ulcers.
        Required activities were performed for
        patients determined to not be at risk for
        pressure ulcers.
        For patients at risk for and with pressure
        ulcers, interprofessional treatment plans were
        developed, interventions were
        recommended, and EHR documentation
        reflected that interventions were provided.
        If the patient’s pressure ulcer was not healed
        at discharge, a wound care follow-up plan
        was documented, and the patient was
        provided appropriate dressing supplies.




VA OIG Office of Healthcare Inspections                                                                   11
                                                        CAP Review of the Boise VA Medical Center, Boise, ID


 NM              Areas Reviewed (continued)                                  Findings
  X     The facility defined requirements for patient   Facility pressure ulcer patient and caregiver
        and caregiver pressure ulcer education, and     education requirements reviewed:
        education on pressure ulcer prevention and       For 2 of the 11 patients, EHRs did not contain
        development was provided to those at risk for     evidence that education was provided.
        and with pressure ulcers and/or their
        caregivers.
  X     The facility defined requirements for staff      The facility had not developed requirements
        pressure ulcer education, and acute care          for ongoing staff pressure ulcer education.
        staff received training on how to administer
        the pressure ulcer risk scale, conduct the
        complete skin assessment, and accurately
        document findings.
 NA     The facility complied with selected fire and
        environmental safety, infection prevention,
        and medication safety and security
        requirements in pressure ulcer patient rooms.
        The facility complied with any additional
        elements required by VHA or local policy.

Recommendations

9. We recommended that processes be strengthened to ensure that SCC minutes include
analysis of pressure ulcer data and that the SCC routinely reports program data to facility
executive leadership.

10. We recommended that processes be strengthened to ensure that acute care staff
accurately document pressure ulcer location and stage for all patients with pressure ulcers and
that compliance be monitored.

11. We recommended that processes be strengthened to ensure that acute care staff provide
and document pressure ulcer education for patients with pressure ulcers and/or their caregivers
and that compliance be monitored.

12. We recommended that the facility establish ongoing staff pressure ulcer education
requirements and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                  12
                                                        CAP Review of the Boise VA Medical Center, Boise, ID


CLC Resident Independence and Dignity
The purpose of this review was to determine whether VHA facilities provided CLC restorative
nursing services and complied with selected nutritional management and dining service
requirements to assist CLC residents in maintaining their optimal level of functioning,
independence, and dignity.7

We reviewed eight EHRs of residents (seven residents receiving restorative nursing services
and one resident not receiving restorative nursing services but a candidate for services). We
also observed 27 residents during 3 meal periods, reviewed 7 employee training/competency
records and other relevant documents, and conversed with key employees. The table below
shows the areas reviewed for this topic. The area marked as NM did not meet applicable
requirements and needed improvement. Any items that did not apply to this facility are marked
NA.

NM                      Areas Reviewed                                       Findings
       The facility offered restorative nursing
       services.
 X     Facility staff completed and documented           In 4 of the 7 applicable EHRs, documentation
       restorative nursing services, including active     of facility staff completion of restorative
       and passive range of motion, bed mobility,         nursing services according to clinician orders
       transfer, and walking activities, according to     and/or residents’ care plans or documentation
       clinician orders and residents’ care plans.        of reasons for discontinuing or not providing
                                                          restorative nursing services was missing
                                                          more than 50 percent of the time.
       Resident progress towards restorative nursing
       goals was documented, and interventions
       were modified as needed to promote the
       resident’s accomplishment of goals.
       When restorative nursing services were care
       planned but were not provided or were
       discontinued, reasons were documented in
       the EHR.
       If residents were discharged from physical
       therapy, occupational therapy, or
       kinesiotherapy, there was hand-off
       communication between Physical Medicine
       and Rehabilitation Service and the CLC to
       ensure that restorative nursing services
       occurred.
       Training and competency assessment were
       completed for staff who performed restorative
       nursing services.
       The facility complied with any additional
       elements required by VHA or local policy.
            Areas Reviewed for Assistive Eating
                Devices and Dining Service
       Care planned/ordered assistive eating devices
       were provided to residents at meal times.



VA OIG Office of Healthcare Inspections                                                                  13
                                                   CAP Review of the Boise VA Medical Center, Boise, ID


NM         Areas Reviewed for Assistive Eating                           Findings
         Devices and Dining Service (continued)
       Required activities were performed during
       resident meal periods.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

13. We recommended that processes be strengthened to ensure that staff complete and
document restorative nursing services according to clinician orders and/or residents’ care plans
or document reasons for discontinuing or not providing restorative nursing services and that
compliance be monitored.




VA OIG Office of Healthcare Inspections                                                             14
                                                         CAP Review of the Boise VA Medical Center, Boise, ID
                                                                                                Appendix A


    Facility Profile (Boise/531) FY 2014 through December 2013a
Type of Organization                                                                 Secondary
Complexity Level                                                                     2-Medium complexity
Affiliated/Non-Affiliated                                                            Affiliated
Total Medical Care Budget in Millions (September 2013)                               $195.4
Number of:
    Unique Patients                                                                 18,030
    Outpatient Visits                                                               76,584
    Unique Employeesb                                                               970
Type and Number of Operating Beds (November 2013):
    Hospital                                                                        46
    CLC                                                                             28
    MH                                                                              11
Average Daily Census (November 2013):
    Hospital                                                                        25
    CLC                                                                             23
    MH                                                                              8
Number of Community Based Outpatient Clinics                                         2
Location(s)/Station Number(s)                                                        Twin Falls/531GE
                                                                                     Canyon County/531GG
VISN Number                                                                          20




a
    All data is for FY 2014 through December 2013 except where noted. 

b
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period. 



VA OIG Office of Healthcare Inspections                                                                    15
                                                                           CAP Review of the Boise VA Medical Center, Boise, ID
                                                                                                                  Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)c




c
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                     16
                                                            CAP Review of the Boise VA Medical Center, Boise, ID



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                      17
                                                                                                                   CAP Review of the Boise VA Medical Center, Boise, ID


                                                                         Metric Definitions
 Measure                       Definition                                                                              Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)       A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                                 A lower value is better than a higher value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                              A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                    A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                             A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)          A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                           A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                       A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                                  A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                    A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics)                          A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                    A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)       A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics)                A higher value is better than a lower value
 PSI                           Patient safety indicator                                                                A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                        A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                          A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction                 A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                    A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                                   A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction               A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure                  A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                                 A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                     A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                          A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics)              A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                              18
                                              CAP Review of the Boise VA Medical Center, Boise, ID
                                                                                     Appendix C
                               VISN Director Comments



               Department of
               Veterans Affairs                                  Memorandum


           Date:        January 31, 2014

          From:         Director, Northwest Network (10N20)

       Subject:         CAP Review of the Boise VA Medical Center, Boise, ID

             To:        Director, Seattle Office of Healthcare Inspections (54SE)

                        Acting Director, Management Review Service (VHA 10AR
                        MRS OIG CAP CBOC)

       1. Thank 	you for the opportunity to respond to the proposed
          recommendations from the Combined Assessment Program Review at
          the Boise VA Medical Center, Boise, Idaho.

       2. Attached please find the facility concurrences and responses to each
          of the findings from the review.

       3. If 	you have additional questions or need further information,
          please contact Susan Gilbert, Survey Coordinator, VISN 20 at
          (360) 567-4678.


       (original signed by:)
       Lawrence H. Carroll




VA OIG Office of Healthcare Inspections                                                        19
                                             CAP Review of the Boise VA Medical Center, Boise, ID
                                                                                    Appendix D
                               Facility Director Comments



               Department of
               Veterans Affairs                                 Memorandum


           Date:        January 24, 2014

          From:         Director, Boise VA Medical Center (531/00)

       Subject:         CAP Review of the Boise VA Medical Center, Boise, ID

             To:        Director, Northwest Network (10N20)

       1. Thank you for the opportunity to review the report on the Office of
          Inspector General Combined Assessment Program Review at the
          Boise VA Medical Center during the week of December 2, 2014. We
          concur with the findings and recommendations and will ensure that
          actions to correct them are completed as described.

       2. Please find attached our facility responses to each recommendation,
          including the status of the corrective action plans.

       3. If you have any additional questions or need further information,
          please contact Dr. Jean Anderson, Chief, Quality and Performance
          Improvement at 208-422-1105.


       (original signed by:)
       David Wood, MHA, FACHE
       Director, Boise VA Medical Center




VA OIG Office of Healthcare Inspections                                                       20
                                            CAP Review of the Boise VA Medical Center, Boise, ID


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
code reviews include screening for clinical issues prior to the code that may have
contributed to the occurrence of the code.

Concur

Target date for completion: June 30, 2014

Facility Response: A compliant code blue review template was identified in existing
written guidance and was used to update the facility MCM. The Critical Care and CPR
(CC&CCR) committee’s code screening process and its documentation in the minutes
will be revised and implemented to ensure that pre-code clinical conditions are identified
and analyzed for contributions to the occurrence of the code. Members of the
Committee and applicable hospital staff have been educated on the updated review
template, process, and revised MCM.

Compliance with screening for clinical issues prior to the code that may have
contributed to the occurrence of the code will be monitored monthly. Monthly auditing
results will be reported to the Clinical Executive Board.

Recommendation 2.         We recommended that the Surgical Invasive Procedure
Committee includes the COS as a member, monitors surgery performance improvement
activities, and documents its review of surgical deaths.

Concur

Target date for completion: June 30, 2014

Facility Response: Facility and surgery service policies and processes have been
updated to clarify and align the existing facility committees’ names, membership,
surgery quality improvement activities, and surgical death reviews with VHA Handbook
1102.01 requirements. Processes, tools, reporting, and documentation requirements
for surgery quality improvement activities and review of surgical deaths will be updated
and implemented to ensure compliance with VHA and facility guidance. Applicable staff
will be educated on VHA and updated facility surgical program processes, tools,
reporting, and documentation requirements. The chief of staff is responsible for
assuring these changes are implemented and sustained.




VA OIG Office of Healthcare Inspections                                                      21
                                           CAP Review of the Boise VA Medical Center, Boise, ID


Compliance with requirements to monitor surgery improvement activities and document
review of surgical deaths will be monitored monthly. Monthly auditing results will be
reported to the Clinical Executive Board.

Recommendation 3. We recommended that processes be strengthened to ensure that
the review of EHR quality includes most services.

Concur

Target date for completion: June 30, 2014.

Facility response: Medical record review processes, tools, and reporting requirements
for the medicine and surgery services will be updated and implemented to ensure
compliance with VHA and facility guidance. Applicable medical and surgical staff will be
educated on the medical record review and reporting requirements, and updated
processes and tools. The chief of staff is responsible for assuring these changes are
implemented and sustained.

Compliance with reviews of medicine and surgery medical record quality will be
monitored quarterly. Quarterly auditing results will be reported to the Clinical Executive
Board.

Recommendation 4. We recommended that processes be strengthened to ensure that
clinicians conducting medication education accommodate identified learning barriers
and document the accommodations made to address those barriers and that
compliance be monitored.

Concur

Target date for completion: June 30, 2014.

Facility response: The Medication Reconciliation Reminder template has been updated
and implemented to ensure that accommodations to address identified learning barriers
are implemented and documented. All clinicians conducting medication education will
be educated on the updated template and the need to accommodate identified learning
barriers and document appropriately.

Compliance with implementing and documenting accommodations to address identified
learning barriers will be monitored monthly. Monthly auditing results will be reported to
the Clinical Executive Board.

Recommendation 5. We recommended that processes be strengthened to ensure that
discharge instructions are consistent with patients’ identified post-discharge needs and
include all elements required by VHA policy and that compliance be monitored.

Concur

Target date for completion: June 30, 2014.


VA OIG Office of Healthcare Inspections                                                     22
                                          CAP Review of the Boise VA Medical Center, Boise, ID


Facility response: Discharge instruction processes, identified in the review, are being
updated to ensure congruence between patients’ identified post-discharge needs and all
discharge instructions. Discharge Instructions templates are being updated to include
all elements required by VHA policy. All applicable inpatient staff will be educated on
the updated discharge instruction processes, discharge instruction requirements in VHA
and facility policies, and the revised templates.

Compliance with requirements for discharge instructions to be consistent with patients’
identified post-discharge needs and to include all elements mandated by VHA policy will
be monitored monthly. Monthly auditing results will be reported to the Clinical Executive
Board.

Recommendation 6. We recommended that the facility have a Veterans Health
Education Coordinator and an active Veterans Health Education Committee.

Concur

Target date for completion: March 31, 2014

Facility Response: To build synergy and improve patient care outcomes across care
settings, the Veterans Health Education Committee (VHEC) and Health Promotion
Disease Prevention Committee (HPDP) will be combined, beginning January 2014. The
newly combined committee is scheduled to meet monthly (at least 10 times per
calendar year). Relevant facility MCMs have been updated. A new Functional
Statement, merging the VHEC and HPDP coordinators’ positions, was created. The
new position will be filled by February 2014.

Compliance with the requirements to have a VHE Coordinator and an active VHEC will
be monitored monthly. Monthly auditing results will be reported to the Administrative
Executive Board.

Recommendation 7. We recommended that the annual staffing plan reassessment
process ensures that the facility expert panel includes all required members.

Concur

Target date for completion: December 31, 2013

Facility Response: The facility expert panel membership was updated to include all
required staff members.

Recommendation 8. We recommended that all members of the facility expert panel
receive the required training prior to the next annual staffing plan reassessment.

Concur

Target date for completion: December 31, 2013



VA OIG Office of Healthcare Inspections                                                    23
                                          CAP Review of the Boise VA Medical Center, Boise, ID


Facility Response: Required training was completed by all members of the facility expert
panel and tracked in TMS. The Chief Nurse Executive or designee is responsible for
assuring these changes are implemented and sustained.

Recommendation 9. We recommended that processes be strengthened to ensure that
SCC minutes include analysis of pressure ulcer data and that the SCC routinely reports
program data to facility executive leadership.

Concur

Target date for completion: November 30, 2014

Facility Response: The SCC developed and implemented a process to ensure that SCC
minutes document the analysis of pressure ulcer data. Quarterly reporting of the SCC
program data to the Clinical Executive Board (CEB) will be initiated February 2014 and
reported quarterly, by the CEB, to the Executive Leadership Council.

Compliance with documentation of pressure ulcer data analysis in the SCC minutes and
reporting of program data to executive leadership will be monitored quarterly. Quarterly
auditing results will be reported to the Clinical Executive Board.

Recommendation 10. We recommended that processes be strengthened to ensure
that acute care staff accurately document pressure ulcer location and stage for all
patients with pressure ulcers and that compliance be monitored.

Concur

Target date for completion: November 30, 2014

Facility Response: Processes will be developed for the nurse analyst or designee to
evaluate the accuracy of applicable acute care staff’s documentation of pressure ulcers,
including stage and location, and provide feedback to improve staff’s documentation
skills.

Compliance with accurate documentation of pressure ulcer location and stage for at
least 90% of the acute care patients with pressure ulcers will be monitored quarterly.
Auditing results will be reported quarterly to the Skin Care Council and the Clinical
Executive Board.

Recommendation 11. We recommended that processes be strengthened to ensure
that acute care staff provide and document pressure ulcer education for patients with
pressure ulcers and/or their caregivers and that compliance be monitored.

Concur

Target date for completion: November 30, 2014




VA OIG Office of Healthcare Inspections                                                    24
                                            CAP Review of the Boise VA Medical Center, Boise, ID


Facility Response: A pressure ulcer education process, educational materials, and a
pressure ulcer patient education template will be created by a multidisciplinary team.
Applicable acute care staff will be educated on the new pressure ulcer education
process, materials, and template. The Skin Care Council is responsible for assuring
these changes are implemented and sustained.

Compliance with documentation of pressure ulcer education for patients with pressure
ulcers and/or their caregivers will be monitored quarterly. Auditing results will be
reported quarterly to the Skin Care Council and the Clinical Executive Board.

Recommendation 12. We recommended that the facility establish ongoing staff
pressure ulcer education requirements and that compliance be monitored.

Concur

Target date for completion: June 30, 2014

Facility Response: A written pressure ulcer education process for applicable acute care
staff, consistent with VHA and facility guidance requirements, will be developed and
implemented. Staff will be educated on the new pressure ulcer education requirement.

Compliance with establishing an on-going staff pressure education program will be
monitored quarterly. Quarterly auditing results will be reported to the Skin Care Council
and the Clinical Executive Board.

Recommendation 13. We recommended that processes be strengthened to ensure
that staff complete and document restorative nursing services according to clinician
orders and/or residents’ care plans or document reasons for discontinuing or not
providing restorative nursing services and that compliance be monitored.

Concur

Target date for completion: June 30, 2014

Facility Response: A templated note to document restorative nursing services, patient
progress, discharge criteria, and the reason for any disruption to the restorative services
has been developed and implemented. Written restorative nursing services procedures
will be updated to ensure compliance with VHA and facility policies. Applicable CLC
staff will be educated on the need to complete restorative nursing services according to
clinician orders and/or residents’ care plans, the updated procedures, and the new
restorative nursing services note template

Compliance with requirements to complete and document restorative nursing services
according to clinician orders and/or residents’ care plans and document reasons for
discontinuing or not providing restorative nursing service will be monitored monthly.
Monthly auditing results will be reported to the Clinical Executive Board.




VA OIG Office of Healthcare Inspections                                                      25
                                            CAP Review of the Boise VA Medical Center, Boise, ID
                                                                                   Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Sarah Lutter, RN, JD, Team Leader
Contributors            Carol Lukasewicz, BSN, RN
                        Sami O’Neill, MA
                        Mary Noel Rees, MPA
                        Susan Tostenrude, MS
                        Michael Seitler, Special Agent in Charge
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Marc Lainhart, BS
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                      26
                                           CAP Review of the Boise VA Medical Center, Boise, ID
                                                                                  Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, Northwest Network (10N20)
Director, Boise VA Medical Center (531/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Mike Crapo, Jeff Merkley, James E. Risch, Ron Wyden
U.S. House of Representatives: Raul R. Labrador, Mike Simpson, Greg Walden


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                     27
                                                         CAP Review of the Boise VA Medical Center, Boise, ID
                                                                                                Appendix G

                                                  Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
2
    References used for this topic included:
	 VHA Directive 1105.01, Management of Radioactive Materials, October 7, 2009.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Handbook 1105.04, Fluoroscopy Safety, July 6, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
    September 11, 2008.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
    October 4, 2011.
	 VA National Center for Patient Safety, “Privacy Curtains and Privacy Curtain Support Structures (e.g., Track and
    Track Supports) in Locked Mental Health Units,” Patient Safety Alert 07-04, February 16, 2007.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
	 VA National Center for Patient Safety, Mental Health Environment of Care Checklist (MHEOCC),
    April 11, 2013.
	 Deputy Under Secretary for Health for Operations and Management, “Mitigation of Items Identified on the
    Environment of Care Checklist,” November 21, 2008.
	 Deputy Under Secretary for Health for Operations and Management, “Change in Frequency of Review Using the
    Mental Health Environment of Care Checklist,” April 14, 2010.
	 Deputy Under Secretary for Health for Operations and Management, “Guidance on Locking Patient Rooms on
    Inpatient Mental Health Units Treating Suicidal Patients,” October 29, 2010.
	 U.S. Pharmacopeia <797>, Guidebook to Pharmaceutical Compounding–Sterile Preparations, June 1, 2008.
	 10 CFR 20, Subpart F.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the National
   Fire Protection Association, the Health Insurance Portability and Accountability Act, the American College of
   Radiology Practice Guidelines and Technical Standards, Underwriters Laboratories.
3
  References used for this topic included:
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Handbook 1907.01.
	 Manufacturer’s instructions for Cipro® and Levaquin®.
	 Various requirements of The Joint Commission.
4
  References used for this topic included:
	 VHA Handbook 1120.04, Veterans Health Education and Information Core Program Requirements,
   July 29, 2009.
	 VHA Handbook 1907.01.
	 The Joint Commission, Comprehensive Accreditation Manual for Hospitals, July 2013.




VA OIG Office of Healthcare Inspections                                                                            28
                                                    CAP Review of the Boise VA Medical Center, Boise, ID



5
    The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.
6
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
   November 2012.
7
  References used for this topic included:
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
	 Centers for Medicare and Medicaid Services, Long-Term Care Facility Resident Assessment Instrument User’s
   Manual, Version 3.0, May 2013.
	 VHA Manual M-2, Part VIII, Chapter 1, Physical Medicine and Rehabilitation Service, October 7, 1992.
	 Various requirements of The Joint Commission.




VA OIG Office of Healthcare Inspections                                                                    29
